Case: 20-2074

Document: 7-2

Filed: 04/20/2021

Page: 1

No. 20-2074

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
WILSHAUN KING,
Petitioner-Appellant,
v.
MIKE BROWN, Acting Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Apr 20, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: DONALD, Circuit Judge.
Wilshaun King, a pro se Michigan prisoner, applies for a certificate of appealability
(“COA”) in his appeal from the district court’s denial of his 28 U.S.C. § 2254 petition for a writ
of habeas corpus. See 28 U.S.C. § 2253(c)(1)(A). King also moves to proceed in forma pauperis.
King’s convictions stemmed from a series of fights, as a result of which he hit two men
with his car, killing one of them, and hit a third in the head with a brick. A jury convicted him of
first-degree premeditated murder, assault with intent to commit murder, and assault with intent to
do great bodily harm less than murder. The trial court sentenced him to life imprisonment for the
murder conviction, and concurrent prison terms of ten to fifty years and thirty-five months to ten
years for the assault convictions, respectively. His direct appeal did not succeed. People v. King,
No. 282533, 2010 WL 98693 (Mich. Ct. App. Jan. 12, 2010) (per curiam), perm. app. denied, 783
N.W.2d 513 (Mich. 2010).
In June 2011, King, through counsel, filed a § 2254 petition asserting that the trial court
violated his rights under the Sixth Amendment’s Confrontation Clause by allowing a medical
examiner to testify about facts in an autopsy report and anatomical sketch that she did not author.
In July 2013, King moved to hold the petition in abeyance so that he could exhaust the state-court
remedies for a claim that his’trial counsel was ineffective for failing to convey a plea offer to himT

Case: 20-2074

Document: 7-2

Filed: 04/20/2021

Page: 2

No. 20-2074
-2The district court granted that abeyance motion, and King litigated this claim through the Michigan
courts without success. See People v. King, 885 N.W.2d 297 (Mich. 2016) (mem.). In 2017, King
filed a supplemental § 2254 petition raising his ineffective-assistance claim. The district court
denied King’s confrontation claim on the merits, denied his ineffective-assistance claim as
untimely, and declined to issue a COA. Kingv. Kowalski, No. 2:1 l-CV-12836,2020 WL 5768897
(E.D. Mich. Sept. 28, 2020). King seeks a COA on both claims.
A court may issue a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when ‘reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been resolved
in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)), or when “jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). When the district court has denied the petition on procedural grounds, the petitioner must
show that reasonable jurists “would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and . . . would find it debatable whether the district court was
correct in its procedural ruling.” Slack, 529 U.S. at 484.
The Confrontation Clause prohibits the admission of testimonial statements of a witness
who did not appear at trial unless the witness was unavailable and the defendant previously had
the opportunity for cross-examination. See Crawford v. Washington, 541 U.S. 36, 53-54 (2004).
A statement is testimonial if its primary purpose is to prove past events that are potentially relevant
to a later criminal trial. See Ohio v. Clark, 576 U.S. 237, 244-46 (2015). That general rule likewise
prohibits the prosecution from introducing certain testimonial forensic or scientific reports through
the in-court testimony of a witness who did not perform or observe the test or examination
expressed in the report. See Bullcoming v. New Mexico, 564 U.S. 647, 652 (2011); Melendez-Diaz
v. Massachusetts, 557 U.S. 305, 310-11 (2009).
At King’s trial, a medical examiner testified that the murder victim died from head injuries
from being hit by a car. She relied in part on the results of an autopsy report that was created by a

Case: 20-2074

Document: 7-2

Filed: 04/20/2021

Page: 3

No. 20-2074
-3 different medical examiner, who had since left the position. King “did not contest the admissibility
of the factual data in the autopsy report, but rather challenged only the admissibility of the
‘opinions and any statements that seem to project opinions’ of the examiner who performed the
autopsy.” King, 2010 WL 98693, at *1. The trial court permitted the testifying medical examiner
to give her opinion about the cause of death but did not admit into evidence the autopsy report or
any opinions or conclusions of its non-testifying author. Id. Because of those limitations, the
Michigan Court of Appeals held that these rulings did not violate the Confrontation Clause. Id.
at *6. King also argued on appeal that the testifying medical expert used an anatomical sketch of
the victim’s injuries that was made by the non-testifying expert. Because King did not raise that
Confrontation Clause argument at trial, the Michigan Court of Appeals reviewed it for plain error
and rejected it, noting that the testifying medical expert gave her own opinion about the accuracy
of the sketch after independently reviewing it and comparing it to other evidence. Id.
The district court first held that the state court’s decision was not unreasonable because it
was not obvious that the Confrontation Clause was even implicated by the medical expert’s
testimony, given that it was “unclear whether autopsy reports are testimonial.” King, 2020
WL 5768897, at *5. The district court noted that “autopsies are not prepared for the primary
purpose of being used at a criminal trial and are often performed before it has even been established
that a crime has been committed and before a criminal suspect is identified.” Id. (citing Mitchell
v. Kelly, 520 F. App’x 329, 331 (6th Cir. 2013) (per curiam) (holding that there was a “lack of
Supreme Court precedent establishing that an autopsy report is testimonial.”)).
Even so, the district court next held that the medical expert’s testimony did not violate the
Confrontation Clause because she merely used the autopsy report and sketch to reach her own
conclusions. Id. The court cited the plurality opinion in Williams v. Illinois, 567 U.S. 50, 57-58
(2012), noting that, while it did not itself clearly establish that rule, the case showed that there was
no clearly established law prohibiting an expert from testifying about her independent conclusions
formed through reviewing a scientific report prepared by someone else. King, 2020 WL 5768897,
at *5.

Case: 20-2074

Document: 7-2

Filed: 04/20/2021

Page: 4

No. 20-2074
-4Finally, assuming the medical expert’s testimony did violate the Confrontation Clause, the
district court still held that any error was harmless. See Bullcoming, 564 U.S. at 668 n.l 1 (holding
that harmless-error analysis applies to Confrontation Clause claims). The district court noted that
King’s defense was not that the victim did not die from being hit by a car; he argued that he was
not the driver. Therefore, the district court held that the medical expert’s testimony about the cause
of the victim’s death did not have a substantial or injurious effect on the jury. King, 2020
WL 5768897, at *6 (citing Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)).
In his § 2254 petition, King asserted that defense counsel did argue at trial that the murder
victim may have died from something other than being hit by a car. Nevertheless, no reasonable
jurist could debate the district court’s denial of King’s Confrontation Clause claim. As the district
court held, neither the Supreme Court nor this Court has held that an autopsy report or an
anatomical sketch is testimonial for Sixth Amendment purposes. See Mitchell, 520 F. App’x
at 331. And neither the Supreme Court nor this Court has held that an expert may not testify about
her own opinions if she reached them using an autopsy and related materials that she did not author.
Therefore, King has not made a substantial showing that the medical examiner’s testimony
violated that Confrontation Clause.
King also claimed that his trial attorney was ineffective for not conveying to him a plea
offer made by the State. The district court denied this claim as untimely, given that King filed it
in a supplemental petition long after § 2254’s one-year statute of limitations had expired and it did
not relate back to his original petition. King, 2020 WL 5768897, at *6-7.
The limitations period for a § 2254 petition begins to run on the latest of: (A) “the date on
which the judgment became final by the conclusion of direct review or the expiration of the time
for seeking such review”; (B) the date on which an impediment to filing a federal habeas petition
is removed by the state; (C) the date on which a new constitutional right asserted is recognized by
the Supreme Court and made retroactively applicable to cases on collateral review; or (D) “the
date on which the factual predicate of the claim or claims presented could have been discovered
through the exercise of due diligence.” 28 U.S.C. § 2244(d)(l)(A)-(D). The district court held
-that-4Cing-s limitations-period-began-under-subse<44on-(A),-and-King-does-nQt-dispute-the-dist«€t-

Case: 20-2074

Document: 7-2

Filed: 04/20/2021

Page: 5

No. 20-2074
-5court’s determination that, were that subsection operative, his claim would be untimely. Instead,
King argues that the statute of limitations for his ineffective-assistance claim was timely because
it began under either subsection (C) or (D).
King first argues that his claim was timely under § 2244(d)(1)(C), because it was based on
two later Supreme Court cases about ineffective assistance of counsel concerning plea offers,
Missouri v. Frye, 566 U.S. 134 (2012), and Lafler v. Cooper, 566 U.S. 156 (2012). But, as the
district court held, King, 2020 WL 5768897, at *8, Frye and Lafler did not announce new,
retroactively applicable constitutional rights or rules. See Shoemaker v. Jones, 600 F. App’x 979,
982 (6th Cir. 2015); In re Liddell, 722 F.3d 737, 738 (6th Cir. 2013) (per curiam). King responds
that the Supreme Court clarified the retroactivity analysis in Montgomery v. Louisiana, 136 S. Ct.
718 (2016).

But he cites no case and has otherwise not made a substantial showing that

Montgomery made Frye or Lafler retroactively applicable. Moreover, even if they were, King did
not raise his supplemental claim within one year of those decisions.
King also asserts that his ineffective-assistance claim was timely under § 2244(d)(1)(D),
because he did not know that his attorney failed to tell him about a plea offer until years after his
direct appeal. The district court held that King knew or could have known of the factual predicate
of his claim at the time of his direct appeal. King, 2020 WL 5768897, at *8. In his COA
application, King does not detail when or how he learned of his counsel’s alleged failure to convey
the plea offer but asserts only that he had not been “intentionally dilatory.” He has not, then, made
a substantial showing that the district court’s ruling was debatable.
Equitable tolling may apply to the limitations period when a petitioner can show: ‘“(1)
that he has been pursuing his rights diligently, and (2) that some extraordinary circumstance stood
in his way’ and prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (quoting
Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). And a petitioner who presents new evidence
and shows that “it is more likely than not that no reasonable juror would have convicted him in the
light of the new evidence,” may also escape the procedural bar of the limitations period.
McQuiggin v. Perkins, 569 U.S. 383, 399 (2013) (quoting Schlup v. Delo, 513 U.S. 298, 327
(1995)). The district court held that King did not make these showings, and he does not argue in

Case: 20-2074

Document: 7-2

Filed: 04/20/2021

Page: 6

No. 20-2074
-6his COA application that equitable tolling should apply or that he is actually innocent. King, 2020
WL 5768897, at *9. Therefore, no reasonable jurist could debate the district court’s denial of
King’s ineffective-assistance claim on timeliness grounds.
Accordingly, King’s COA application is DENIED, and his motion to proceed in forma
pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1625

Page 1 of 24

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
WILSHAUN KING,
Petitioner,

Case No. 2:11-CV-12836
HONORABLE LINDA V. PARKER

v.

JACK KOWALSKI, i
Respondent.
OPINION AND ORDER DENYING PETITION FOR A WRIT OF HABEAS
CORPUS AND DECLINING TO ISSUE A CERTIFICATE OF
APPEALABILITY
Wilshaun King (“Petitioner”), confined at the Kincross Correctional Facility
in Kincheloe, Michigan, seeks the issuance of a writ of habeas corpus pursuant to 28
U.S.C. § 2254. In his application, filed by attorney Daniel J. Blank, Petitioner
challenges his conviction for first-degree premeditated murder, Mich. Comp. Laws
§ 750.316(l)(a), assault with intent to commit murder, Mich. Comp. Laws § 750.83,
and assault with intent to do great bodily harm less than murder, Mich. Comp. Laws
§ 750.84. (ECF No. 1 at Pg. ID 3.) For the reasons that follow, the Court denies the
petition for a writ of habeas corpus.

Wilshaun King is currently incarcerated at Kincross Correctional Facility, where
-Jack-Kowalski-is-wardenr-Accordingly,-thecase.caption.is.updated.to.read--------“Wilshaun King v. Jack Kowalski.”
1
i

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1626

Page 2 of 24

BACKGROUND
This Court recites verbatim the relevant facts relied upon by the Michigan
Court of Appeals, which are presumed correct on habeas review pursuant to 28
U.S.C. § 2254(e)(1). See Wagner v. Smith, 581 F.3d 410, 413 (6th Cir. 2009):
Defendant’s convictions arise from a series of fights that led to the
death of Tyree Jones, who allegedly was killed when he was struck by
a motor vehicle that defendant was driving. Defendant was also
convicted of assault with intent to commit murder for striking Frank
Sanders, Jr., with his vehicle, and assault with intent to do great bodily
harm less than murder for striking Marcellus Smith on the head with a
brick. At trial, defendant admitted interceding in a fight between his
cousin and Smith, and punching Smith one time to get him off his
cousin, but denied ever striking Smith with a brick. Although several
witnesses identified defendant as the driver of a Ford Explorer that later
drove through a field and allegedly struck Jones and Sanders, defendant
claimed that he left the area after the fight with Smith and went to Belle
Isle with his son, and that he had no knowledge of the events that
occurred afterward.
People v. King, No. 282533, 2010 WL 98693, at *1 (Mich. Ct. App. Jan. 12, 2010).
Petitioner was convicted by a jury in the Wayne County Circuit Court.
(ECF No. 1 at Pg. ID 3.) Petitioner’s conviction was affirmed. People v. King,
2010 WL 98693, Iv. den. 783 N.W.2d 513 (Mich. 2010).
On June 30, 2011, Petitioner, through counsel, filed a petition for a writ of
habeas corpus. (ECF No. 1.) Petitioner seeks relief on the following ground:
Petitioner’s Sixth Amendment [r]ight [to] confrontation was violated
when the substitute medical examiner was permitted to testify
concerning facts contained within an autopsy report and anatomical
_____ chart authored by another [medical examiner!._________________________
2

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1627

Page 3 of 24

(Id. at Pg. ID 5.)
On July 30, 2013, Petitioner filed a motion to hold the petition in abeyance so
that he could return to the state court to exhaust a claim that his trial counsel had
been ineffective for failing to convey a plea bargain offer to him. (ECF No. 9.) This
Court’s predecessor, Judge Avem Cohn, held the petition in abeyance and
administratively closed the case on August 2, 2013. (ECF No. 10.)
On September 28, 2013, Petitioner filed a post-conviction motion for relief
from judgment with the Wayne County Circuit Court. (ECF No. 14-2.) Judge
Megan Maher Brennan initially granted Petitioner’s motion for an evidentiary
hearing on Petitioner’s ineffective assistance of counsel claim. People v. King, No.
06-00137164-01 (Third Cir. Ct., Jan. 3,2014); (see also ECF No. 11 atPg. ID 131722.)
The matter was sent back to the original trial judge, Judge Annette Berry, who
subsequently set aside the order to grant an evidentiary hearing and denied
Petitioner’s post-conviction motion for relief from judgment. People v. King, No.
06-00137164-01 (Third Cir. Ct., Jan. 9, 2015); (see also ECF No. 14-3 at Pg. ID
1441-45.) The Michigan Court of Appeals denied Petitioner leave to appeal. People
v. King, No. 327239 (Mich. Ct. App. Oct. 2, 2016); Iv. den. 885 N.W.2d 297 (Mich.

2016); reconsideration den. 890N.W.2d 866 (Mich. 2017).

3

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1628

Page 4 of 24

On April 8, 2017, Petitioner filed a motion to add a supplemental memorandum of
law to the original petition. (ECF No. 11.) Petitioner sought relief on the ground
that the trial court erred when it denied Petitioner’s request for an evidentiary hearing
on the issue of ineffective assistance of counsel. {Id. at Pg. ID 1307-09.) Judge
Cohn reopened the case and granted the motion. (ECF No. 12.)
On November 30, 2017, Petitioner filed a motion to amend the petition and to
supplement the petition with the following issue: “Petitioner’s Sixth Amendment
right to effective assistance of counsel was violated when trial counsel failed to
inform him of a plea offer during jury deliberations.” (ECF No. 16 at Pg. ID 1567.)
Judge Cohn granted the motion to amend the petition. (ECF No. 19.)
Petitioner seeks habeas relief on the claims that he raised in his original and
amended petitions. Respondent has filed answers to the original and amended
petitions. (ECF Nos. 5, 13, 20.) This case was reassigned to the undersigned on
January 2, 2020 pursuant to Administrative Order 20-ao-003.
STANDARD OF REVIEW
28 U.S.C. § 2254(d), as amended by The Antiterrorism and Effective Death
Penalty Act of 1996 (AEDPA), imposes the following standard of review for habeas
cases:
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits
in State court proceedings unless the adjudication of the claim4

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1629

Page 5 of 24

(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
A decision of a state court is “contrary to” clearly established federal law if
the state court arrives at a conclusion opposite to that reached by the Supreme Court
on a question of law or if the state court decides a case differently than the Supreme
Court has on a set of materially indistinguishable facts. Williams v. Taylor, 529 U.S.
362, 405-06 (2000). An “unreasonable application” occurs when “a state court
decision unreasonably applies the law of [the Supreme Court] to the facts of a
prisoner’s case.” Id. at 409. A federal habeas court may not “issue the writ simply
because that court concludes in its independent judgment that the relevant state-court
decision applied clearly established federal law erroneously or incorrectly.” Id. at
410-11. “[A] state court’s determination that a claim lacks merit precludes federal
habeas relief so long as ‘fairminded jurists could disagree’ on the correctness of the
state court’s decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011) (citing
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). In order to obtain habeas relief
in federal court, a state prisoner is required to show that the state court’s rejection of
his claim “was so lacking in justification that there was an error well understood and
5

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1630

Page 6 of 24

comprehended in existing law beyond any possibility for fairminded disagreement.”
Harrington, 562 U.S. at 103. A habeas petitioner should be denied relief as long as
it is within the “realm of possibility” that fairminded jurists could find the state court
decision to be reasonable. See Woods v. Etherton, 136 S. Ct. 1149, 1152 (2016).
The Michigan Court of Appeals reviewed and rejected a portion of
Petitioner’s Confrontation Clause claim involving the anatomical sketch under a
plain error standard because Petitioner failed to preserve a portion of his claim as a
constitutional issue at the trial court level. (ECF No. 6-9 at Pg. ID 892.) AEDPA
deference applies to any underlying plain-error analysis of a procedurally defaulted
claim. See Stewart v. Trierweiler, 867 F.3d 633, 638 (6th Cir. 2017).2
DISCUSSION
A. Claim # 1. Sixth Amendment Right to Confront Witnesses

2 Respondent urges this Court to deny this portion of the claim on the ground that it
is procedurally defaulted because Petitioner failed to object at trial. “[Fjederal courts
are not required to address a procedural-default issue before deciding against the
petitioner on the merits.” Hudson v. Jones, 351 F.3d 212,215 (6th Cir. 2003) (citing
Lambrix v. Singletary, 520 U.S. 518, 525 (1997)). “Judicial economy might counsel
giving the [other] question priority, for example, if it were easily resolvable against
the habeas petitioner, whereas the procedural-bar issue involved complicated issues
of state law.” Lambrix, 520 U.S. at 525. Petitioner’s unpreserved Confrontation
Clause claim is related to his preserved Confrontation Clause claim. Because the
same legal analysis applies to both the preserved and unpreserved claims, it would
be-easier-to-simply-address-the-merits-of-the-unpreserved_Confrontation_Claus_e
claim.
6

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1631

Page 7 of 24

Petitioner argues that his Sixth Amendment right to confrontation was
violated when a substitute medical examiner who had not performed the autopsy on
the victim was permitted to testify at trial about the findings from the autopsy and
testify to the cause of death. (ECF No. 1 at Pg. ED 5.)
The Wayne County Medical Examiner’s Office received information from the
police and had its own investigator, who went to the scene and reported his findings.
(ECF No. 6-4 at Pg. ID 535.) Doctor Melissa Pasquale-Styles was the medical
examiner who performed the autopsy in August of 2005. (ECF No. 6-3 at Pg. ED
510.) Dr. Pasquale-Styles left Wayne County to take a job in New York before
Petitioner’s 2007 trial. (ECF Nos. 6-3 at Pg. ED 510; 6-4 at Pg. ED 528, 532.)
At the beginning of trial, Petitioner’s retained counsel filed a motion in limine,
objecting to any opinions contained within the victim’s autopsy report being
admitted into evidence. (ECF No. 6-2 at Pg. ED 262-64.) As to the facts contained
within the autopsy report, retained counsel had no objection to their admission
because they were not testimonial. (Id. at Pg. ED 263.) The prosecutor responded
that the substituted medical examiner, Wayne County’s Chief Deputy Medical
Examiner Dr. Cheryl Lowe, would testify about her opinion and that counsel would
have the opportunity to cross-examine her. (Id. at Pg. ID 264). The judge then
denied Petitioner’s motion. (Id. at Pg. ED 265.)

7

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1632

Page 8 of 24

At trial, Dr. Lowe testified that she reviewed the victim’s autopsy report.
(ECF No. 6-3 at Pg. ID 501-02.) The victim’s injuries were documented in an
anatomical sketch. {Id. at Pg. ID 503-04.) Dr. Lowe testified that the victim had no
tire marks on his body or clothing. {Id. at Pg. ID 511-12; ECF No. 6-4 at Pg. ID
528, 530, 535.) The top right side of the victim’s head had scrapes and contusions.
(ECF Nos. 6-3 at Pg. ID 504; 6-4 at Pg. ID 526.) The victim had an abrasion on his
right cheek and a fractured jawbone. (ECF Nos. 6-3 at Pg. ID 504; 6-4 at Pg. ID
524.) The victim’s left arm also had bruises and abrasions. (ECF No. 6-3 at Pg. ID
505.) The victim’s right wrist was broken and he had a scrape on the palm of his
right hand. {Id. at Pg. ID 505, 513-14.) At the time that victim was discovered, he
had no drugs or alcohol in his system and had been dead for several hours. {Id. at
Pg. ID 507; ECF No. 6-4, at Pg. ID 529-30.)
Dr. Lowe testified that it was her opinion that the victim died from head and
skull injuries after he was intentionally struck by a motor vehicle. (ECF No. 6-3 at
Pg. ID 502, 506-09.) Underneath was a skull fracture, “described as being depressed
or caved in and comminuted or shattered,” that “could have been caused by a blunt
force injury.” {Id. at Pg. ID 504; ECF No. 6-4 at Pg. ID 523.) The victim’s brain
stem was tom, which Dr. Lowe opined resulted in nearly instantaneous death. (ECF
No. 6-3 at Pg. ID 506.) Dr. Lowe testified that the victim’s injuries were consistent
- with-his-body-being-propelled-in-the-air,-becoming—a-projectile-at-some-poinl-and
8

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1633

Page 9 of 24

striking] some hard object.” (ECF No. 6-4 at Pg. ID 539.) She conceded that his
head could have hit the utility pole in the field where he was found. (ECF Nos. 6-3
at Pg. ID 507-08, 512; 6-4 at Pg. ID 538-39.) The victim’s left lower “leg bone was
fractured and protruding out of a hole in the skin and his knee cap was also
dislocated.” (ECF No. 6-3 at Pg. ED 505.) Dr. Lowe testified that on the victim’s
legs was “the classic so-called bumper injury,” which she opined confirmed that the
victim was struck while standing. (Id. at Pg. ED 505-06, 511; ECF No. 6-4 at Pg. ED
537.) While the victim’s injuries were also consistent with blunt force trauma, like
that from a beating, Dr. Lowe testified there was no information from the police that
the victim had been beaten, and Dr. Lowe believed that a substantial amount of force
would have been required to inflict his numerous injuries. (ECF No. 6-4 at Pg. ID
530, 536-37.)
The Michigan Court of Appeals rejected Petitioner’s claim, concluding that
there was no violation of Petitioner’s Sixth Amendment right to confrontation:
Dr. Lowe testified regarding her own opinions and conclusions, and,
although Dr. Lowe based her opinions in part on facts obtained during
the autopsy performed by another doctor, defendant did not challenge
the admissibility of those facts and specifically agreed that “pure facts”
contained in the autopsy report could be offered at trial.
People v. King, 2010 WL 98693, at *3 (emphasis in original).
After citing a number of federal and state law cases in support of their
decision^the-Michigan-Gourt-of-Appeals again explained:
9

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1634

Page 10 of 24

In this case, defendant did not contest the admissibility of the factual
data from the autopsy report, and Dr. Lowe testified at trial about her
own opinions and conclusions based on that data; the opinions and
conclusions of the nontestifying examiner who conducted the autopsy
were not admitted. Because defendant had the opportunity to confront
Dr. Lowe and cross-examine her regarding her opinions, defendant’s
Sixth Amendment right of confrontation was not violated.
People v. King, 2010 WL 98693, at *6.
The Michigan Court of Appeals also rejected Petitioner’s claim that Dr.
Lowe’s use of the anatomical sketch violated his right to confrontation:
Dr. Lowe testified that she independently reviewed the sketch and
compared it to other evidence from the autopsy, including photographs
of the victim’s injuries, and concluded that the diagram was an accurate
representation of the victim’s injuries. Because Dr. Lowe
independently verified the accuracy of the sketch, and was present at
trial and subject to cross-examination concerning the sketch, defendant
has not established a plain error under the Confrontation Clause.
Id.
Out-of-court statements that are testimonial in nature are barred by the Sixth
Amendment Confrontation Clause unless the witness is unavailable and the
defendant has had a prior opportunity to cross-examine the witness, regardless of
whether such statements are deemed reliable by the court. See Crawford v.
Washington, 541 U.S. 36, 59, 63 (2004). However, the Confrontation Clause is not
implicated, and does not need not be considered, when non-testimonial hearsay is at
issue. See Davis v. Washington, 547 U. S. 813, 823-26 (2006). To be considered as
“testimonial” for purposes of the Sixth Amendment, the evidence must have a
10

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1635

Page 11 of 24

“primary purpose” to “establish or prove past events potentially relevant to later
criminal prosecution.” Id. at 822. In holding that the Sixth Amendment right to
confrontation does not apply to non-testimonial statements, the Supreme Court
stated:
“The text of the Confrontation Clause reflects this focus [on testimonial
hearsay]. It applies to ‘witnesses’ against the accused-in other words,
those who ‘bear testimony.’ 1 N. Webster, An American Dictionary of
the English Language (1828). ‘Testimony,’ in turn, is typically ‘a
solemn declaration or affirmation made for the purpose of establishing
or proving some fact.’ Ibid. An accuser who makes a formal statement
to government officers bears testimony in a sense that a person who
makes a casual remark to an acquaintance does not.”
Davis, 547 U.S. at 823-24 (quoting Crawford, 541 U.S. at 51).
The Supreme Court has held that scientific or laboratory reports which are
admitted to prove a fact are testimonial statements, for purposes of the Sixth
Amendment right to confrontation. See Bullcoming v. New Mexico, 564 U.S. 647,
665 (2011); Melendez-Diaz v. Massachusetts, 557 U.S. 305, 310-11 (2009).
Because they are testimonial, the reports cannot be admitted into evidence unless the
analysts who wrote them are subject to cross-examination. Bullcoming, 564 U.S. at
663; Melendez-Diaz, 557 U.S. at 311.
Notwithstanding the holdings in Crawford, Melendez-Diaz, and Bullcoming,
it is unclear whether autopsy reports are testimonial in nature for purposes of the
Sixth Amendment Confrontation Clause because autopsies are not prepared for the
primary purpose of being used at a criminal trial and are often performed before it
11

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1636

Page 12 of 24

has even been established that a crime has been committed and before a criminal
suspect is identified. See Williams v. Illinois, 567 U.S. 50, 97-98 (2012) (Breyer, J.,
concurring) (“Autopsies are typically conducted soon after death .... when it is not
yet clear whether there is a particular suspect or whether the facts found in the
autopsy will ultimately prove relevant in a criminal trial.”); United States v. James,
712 F.3d 79, 97-99 (2nd Cir. 2013) (explaining that routine autopsy report was not
testimonial because it was completed substantially before criminal investigation
began and no criminal investigations are pursued in the cases of most autopsies); but
see United States v. Ignasiak, 667 F.3d 1217, 1229-33 (11th Cir. 2012) (concluding
that, under Crawford, Melendez-Diaz, and Bullcoming, autopsy reports from
Florida’s Medical Examiners Commission, part of the Department of Law
Enforcement, were testimonial).
Several federal courts have concluded that there is no clearly established
Supreme Court precedent regarding whether autopsy or coroner reports are
testimonial in nature. See Mitchell v. Kelly, 520 F. App’x 329, 331 (6th Cir. 2013)
(“[T]he decision . . . [that an autopsy report was admissible as a nontestimonial
business record] was not an unreasonable application of Crawford given the lack of
Supreme Court precedent establishing that an autopsy report is testimonial.”); see
also Hensley v. Roden, 755 F.3d 724, 735 (1st Cir. 2014) (concluding that neither
Crawfazd-nor. Melendez-Diaz clearly establish that autopsy reports are testimonial
12

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1637

Page 13 of 24

for purposes of the Sixth Amendment). “Abstractly, an autopsy report can be
distinguished from, or assimilated to, the sworn documents in Melendez-Diaz and
Bullcoming, and it is uncertain how the [Supreme] Court would resolve the
question.” Nardi v. Pepe, 662 F.3d 107, 111 (1st Cir. 2011). In the absence of any
Supreme Court caselaw which clearly establishes that an autopsy report or
anatomical sketch from the autopsy is testimonial, Petitioner is not entitled to relief
on his claim.
Even if the autopsy report and anatomical sketch would have been testimonial
for purposes of the Confrontation Clause, there still would be no violation of the
Sixth Amendment because Dr. Lowe used them to reach her own opinion and
conclusions concerning the victim’s cause of death. In Williams v. Illinois, 567 U.S.
50, 57-58 (2012), a plurality of the Supreme Court held that out-of-court statements
concerning DNA evidence that are referred to by an expert who testifies for the
prosecution solely for the purpose of explaining that expert’s own assumptions on
which his own independent expert opinion is based are not offered for their truth of
the matter asserted and therefore fall outside the scope of the Confrontation Clause.
Although the holding in the plurality opinion in Williams might not qualify as clearly
established federal law, it suggests that there is no clearly established federal law
which holds that a defendant’s right to confrontation is violated when an expert
-witop,ss.Mstlfip.R4o-fnrming.an.independent opinion after reviewing a report prepared
13

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1638

Page 14 of 24

by another expert who does not testify. See Barbosa v. Mitchell, 812 F.3d 62, 67
(1st Cir. 2016) (holding that Williams suggests that admitting an opinion “by an
expert witness who has some connection to the scientific report prepared by another
whom she supervised” does not violate the right to confrontation).

Indeed, by

blessing the admission of almost identical testimony by a DNA expert, the
[Supreme] Court’s actual holding in Williams might well be read as telling [this
Court] that [Petitioner] is not, with respect to this issue, being held ‘in custody in
violation of the Constitution,’ 28 U.S.C. § 2254(a).” Id. at 67.
In light of existing Supreme Court precedent, the Michigan Court of Appeals
did not unreasonably conclude that Petitioner’s Sixth Amendment right to
confrontation was not violated by the admission of Dr. Lowe s testimony.
Even assuming that the trial court erred in permitting Dr. Lowe to testify about
the autopsy report, Petitioner would not be entitled to relief because any error was
harmless. Confrontation Clause violations are subject to harmless error review. See
Bulls v. Jones, 21A F.3d 329, 334 (6th Cir. 2001). In Brecht v. Abrahamson, 507
U.S. 619, 637 (1993), the Supreme Court held that for purposes of determining
whether federal habeas relief must be granted to a state prisoner on the ground of
federal constitutional error, the appropriate harmless error standard to apply is
whether the error had a substantial and injurious effect or influence in determining
—the~jury-s_verdiet__In determining whether a Confrontation Clause violation is
14

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1639

Page 15 of 24

harmless under Brecht, a court should consider the following factors: “(1) the
importance of the witness’ testimony in the prosecution’s case; (2) whether the
testimony was cumulative; (3) the presence or absence of evidence corroborating or
contradicting the testimony of the witness on material points; (4) the extent of cross
examination otherwise permitted; and (5) the overall strength of the prosecution’s
case.” See Jensen v. Romanowski, 590 F.3d 373, 379 (6th Cir. 2009) (citing
Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986)).
Petitioner did not contest that Jones had been struck by a vehicle or that Jones
died as a result. Rather, Petitioner’s defense at trial was that he did not drive the
vehicle that struck Jones or Sanders, who survived. In light of Petitioner’s defense,
the admission of Dr. Lowe’s testimony did not have a substantial or injurious effect
or influence upon the jury. Petitioner is not entitled to relief on his first claim.
B. Claim # 2. Sixth Amendment Right to Effective Assistance of
Counsel
Respondent contends that Petitioner’s remaining claims, which he raised for
the first time in his amended petitions for a writ of habeas corpus, are barred by the
one year statute of limitations contained within 28 U.S.C. § 2244(d)(1) because the
amended petitions were filed more than one year after Petitioner’s conviction

15

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1640

Page 16 of 24

became final and the additional claims do not relate back to the claims raised by
Petitioner in his original habeas petition.3
In the statute of limitations context, “dismissal is appropriate only if a
complaint clearly shows the claim is out of time.” Harris v. New York, 186 F.3d
243, 250 (2d Cir. 1999); see also Cooey v. Strickland, 479 F.3d 412, 415-16 (6th
Cir. 2007).
Under the AEDPA, a one year statute of limitations shall apply to an
application for a writ of habeas corpus by a person in custody pursuant to a judgment
of a state court. 28 U.S.C. § 2244(d)(1). The one year statute of limitation shall run
from the latest of:
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United
States is removed, if the applicant was prevented from filing by
such State action;

3 A statute of limitations defense to a habeas petition is not “jurisdictional,” thus,
courts “are under no obligation to raise the time bar sua sponte.” Day v.
McDonough, 547 U.S. 198, 205 (2006). The fact that Petitioner was granted
permission to file his amended petitions does not preclude Respondent from raising
a limitations defense to the claims raised in those petitions. See Quatrine v.
Berghuis, No. 2:10-CV-11603,2014 WL 793626, at *6 (E.D. Mich. Feb. 27,2014);
Soule v. Palmer, No. 08—cv—13655, 2013 WL 450980, at *1-3 (E.D. Mich. Feb. 5,
2013). Although Respondent could have filed an opposition to Petitioner’s motions
to amend his petition, Respondent was not required to do so under Federal Rule of
- Civil-Procedure - 8 -until-he-filed-answers _to .the. amended_petitions .__ See Quatrine,
2014 WL 293636, at *6.
16

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1641

Page 17 of 24

(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
Id.
Petitioner’s direct appeal of his conviction ended when the Michigan Supreme
Court denied Petitioner leave to appeal on July 2, 2010, following the affirmance of
his conviction by the Michigan Court of Appeals on direct review. (ECF No. 6-10.)
Under the AEDPA, a petitioner has 90 days to seek certiorari with the U.S. Supreme
Court. See Jimenez v. Quarterman, 555 U.S. 113, 119-20 (2009). Petitioner s
judgment therefore became final on September 30, 2010, when he failed to file a
petition for a writ of certiorari with the U.S. Supreme Court. Petitioner thus had
until September 30, 2011, to file his habeas petition in compliance with the one year
limitations period.
Petitioner timely filed his original habeas petition on June 30, 2011.
Petitioner did not, however, seek to amend his habeas petition to add his ineffective
assistance of counsel claim until July 30, 2013, at the earliest, when he filed his

17

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1642

Page 18 of 24

motion to stay the petition so that he could return to the state courts to exhaust this
claim.4 This was well after the limitations period had passed on September 30,2011.
When a habeas petitioner files an original petition within the one-year
deadline, and later presents new claims in an amended petition that is filed after the
deadline passes, the new claims will relate back to the date of the original petition
only if the new claims share a “common core of operative facts” with the original
petition.

Moyle v. Felix, 545 U.S. 644, 664 (2005).

Petitioner’s ineffective

assistance of counsel claim based on trial counsel’s failure to relay a plea offer does
not share a “common core of operative facts” with the Confrontation Clause claim
based on the substitution of the medical examiner. Thus the former claim is barred
by the one year limitations period. See Pinchon v. Myers, 615 F.3d 631, 643 (6th
Cir. 2010).
Petitioner cited to Missouri v. Frye, 566 U.S. 134 (2012) andLafler v. Cooper,
566 U.S. 156 (2012) in support of his claim that his trial counsel was ineffective for
failing to inform him that the prosecutor had allegedly offered a plea bargain while
the jury deliberated,

28 U.S.C. § 2244(d)(1)(C) indicates that the one year

limitations period can run from “the date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the right has been newly

4 This Court construes Petitioner’s July 30, 2013 motion as both a motion to amend
■his-habeas-petit-ion-to-add-the-ineffective-assistance-of-trial_counseLclaim_and_a
motion to stay. See Murphy v. Elo, 250 F. App’x 703, 704 (6th Cir. 2007).
18

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1643

Page 19 of 24

recognized by the Supreme Court and made retroactively applicable to cases on
collateral review.” A federal district court has the ability to determine whether a
newly recognized right has been made retroactively applicable to cases on collateral
review, for purposes of this section or 28 U.S.C. § 2255

6(3), the analogous

provision of the statute of limitations for federal motions to vacate sentence. See
Wiegand v. United States, 380 F.3d 890, 892-93 (6th Cir. 2004).
Every circuit court that has considered the issue has ruled that “neither Frye
nor Cooper created a ‘new rule of constitutional law’ made retroactive to cases on
collateral review by the Supreme Court.” In re Liddell, 722 F.3d 737, 738 (6th Cir.
2013) (holding that Frye and Cooper did not announce a new rule of constitutional
law that would permit defendant to file a successive motion to vacate sentence). The
Supreme Court in Frye “merely applied the Sixth Amendment right to effective
assistance of counsel according to the test first articulated in Strickland v.
Washington, 466 U.S. 668 (1984), and established in the plea-bargaining context in
Hill v. Lockhart, 474 U.S. 52 (1985).” Hare v. U.S, 688 F. 3d 878, 879 (7th Cir.
2012).
This Court also recognizes that Petitioner in his reply argues that his
ineffective assistance of counsel claim “did not materialize until approximately 3
years after the conclusion of his direct appeal.” (ECF No. 15 at Pg. ID 1564.)
Petitioner Indicates that it was not until August of 2013 that he was able to obtain an
19

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1644

Page 20 of 24

affidavit from trial counsel admitting to failing to advise Petitioner about the plea.
(Id.) « But according to affidavits filed by Petitioner and his father,5 during jury
deliberations, the prosecutor informed Petitioner’s father about a plea offer that the
prosecutor made. (ECF No. 14-4 at Pg. ID 1464, 1478, 1494.) According to
Petitioner’s father, trial counsel “neglected to inform [Petitioner] of the prosecutor’s
offer prior to the jury rendering its verdict. (Id. at Pg. ID 1475.)
Under 28 U.S.C.§ 2244(d)(1)(D), the AEDPA’s one year limitations period
will begin running from the date upon which the factual predicate for a claim
becomes known or could have been discovered through due diligence by the habeas
petitioner—not when it was actually discovered by a given petitioner. See Ali v.
Tennessee Board of Pardon and Paroles, 431 F.3d 896, 898 (6th Cir. 2005);
Redmond v. Jackson, 295 F. Supp 2d 767, 771 (E.D. Mich. 2003). Significantly, “§
2244(d)(1)(D) does not convey a statutory right to an extended delay while a
petitioner gathers every possible scrap of evidence . . . which supports the facts,
including supporting affidavits.” Redmond, 295 F. Supp. at 771-72. A habeas
petitioner has the burden of proof in persuading a federal court that he exercised due
diligence in searching for the factual predicate of the habeas claims. See Stokes v.
Leonard, 36 F. App’x 801, 804 (6th Cir. 2002). Newly discovered information “that

5 The affidavits were attached to motion to remand for an evidentiary hearing that
Petitioner-filed-with-his.post-conviction.appeal._(ECF_No._14=4.at Pg.JDJA^TO,
1474.)
20

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1645

Page 21 of 24

merely supports or strengthens a claim that could have been properly stated without
the discovery ... is not a ‘factual predicate’ for purposes of triggering the statute of
limitations under § 2244(d)(1)(D).” See Jefferson v. U.S., 730 F.3d 537, 547 (6th
Cir. 2013) (quoting Rivas v. Fischer, 687 F.3d 514, 535 (2nd Cir. 2012)). Petitioner
was aware of the factual predicate of his ineffective assistance of trial counsel claim
at the time of his direct appeal. Thus, the commencement of the running of the
statute of limitations is not delayed pursuant to 28 U.S.C.§ 2244(d)(1)(D).
The AEDPA’s statute of limitations “is subject to equitable tolling in
appropriate cases.” Holland v. Florida, 560 U.S. 631, 645 (2010). A habeas
petitioner is entitled to equitable tolling “only if he shows ‘(1) that he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood in
his way’” and prevented the timely filing of the habeas petition. Id. at 649 (quoting
Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). The Sixth Circuit has observed
that “the doctrine of equitable tolling is used sparingly by federal courts.” Robertson
v. Simpson, 624 F.3d 781, 784 (6th Cir. 2010). The burden is on a habeas petitioner
to show that he is entitled to the equitable tolling of the one year limitations period.
Id. Here, Petitioner is not entitled to equitable tolling of the one year limitations
period, because he failed to argue or show that the facts of his case support equitable
tolling. See Giles v. Wolfenbarger, 239 F. App’x 145, 147 (6th Cir. 2007).

21

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1646

Page 22 of 24

The one year statute of limitations may also be equitably tolled based upon a
credible showing of actual innocence under the standard enunciated in Schup v.
Delo, 513 U.S. 298 (1995). See McQuiggin v. Perkins, 569 U.S. 383, 386 (2013).
For an actual innocence exception to be credible under Schlup, such a claim requires
a habeas petitioner to support his allegations of constitutional error “with new
reliable evidence—whether it be exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence—that was not presented at trial.”
Schlup, 513 U.S. at 324. Petitioner’s case falls outside of the actual innocence tolling
exception, because he presented no new, reliable evidence to establish that he was
actually innocent of the crimes charged. See Ross v. Berghuis, 417 F.3d 552, 556
(6th Cir. 2005).
Finally, the Court notes that it does not have the power to grant habeas relief
on Petitioner’s claim that the trial court denied his motion for an evidentiary hearing
on his ineffective assistance of trail counsel claim.

“The Sixth Circuit [has]

consistently held that errors in post-conviction proceedings are outside the scope of
federal habeas corpus review.” Cress v. Palmer, 484 F.3d 844, 853 (6th Cir. 2007).
This is because states have no constitutional obligation to provide post-conviction
remedies.

See Greer v. Mitchell, 264 F.3d 663, 681 (6th Cir. 2001) (citing

Pennsylvania v. Finley, 481 U.S. 551, 557 (1987)). Because Petitioner sought an
evidentiary hearing with respect to a claim that he raised in his post-conviction
22

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1647

Page 23 of 24

motion, the failure by the state courts to grant him an evidentiary hearing on this
claim does not entitle him to habeas relief.
Moreover, there is no clearly established Supreme Court law which
recognizes a constitutional right to a state court evidentiary hearing to develop a
claim of ineffective assistance of counsel even on direct appeal. See Hayes v.
Prelesnik, 193 F. App’x 577, 584-85 (6th Cir. 2006).
CONCLUSION
For the reasons discussed above, the petition for a writ of habeas corpus is
denied with prejudice.
When a district court rejects a habeas petitioner’s constitutional claims on the
merits, the petitioner must demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims to be debatable or wrong. Slack v.
McDaniel, 529 U.S. 473, 484 (2000).

Likewise, when a district court denies a

habeas petition on procedural grounds without reaching the prisoner’s underlying
constitutional claims, a certificate of appealability should issue, and an appeal of the
district court’s order may be taken, if the petitioner shows that jurists of reason would
find it debatable whether the petitioner states a valid claim of the denial of a
constitutional right, and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling. Id.

I

23

1

Case 2:ll-cv-12836-LVP-RSW ECF No. 23 filed 09/28/20

PagelD.1648

Page 24 of 24

The Court denies Petitioner a certificate of appealability because he failed to
make a showing of the denial of a federal constitutional right.
Accordingly,
IT IS ORDERED that the Petition for a Writ of Habeas Corpus (ECF No. 1)
is DENIED WITH PREJUDICE.
IT IS FURTHER ORDERED that the Court DECLINES to issue a
Certificate of Appealability.
IT IS SO ORDERED.
s/ Linda V. Parker
LINDA V. PARKER
U.S. DISTRICT JUDGE

Dated: September 28, 2020

24

STATE OF MICHIGAN

T

m

COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

tUPV
f ■

UNPUBLISHED
January 12, 2010

Plaintiff-Appellee,'

No. 282533
Wayne Circuit Court
LC No. 06-013764-FC

WILSHAUN KING,
Defendant-Appellant.

Before: Davis, P.J., and Fort Hood and Servitto, JJ.
PER CURIAM,
Defendant was convicted by a jury of first-degree premeditated murder, MCL
750.316(l)(a); assault with intent to commit murder, MCL,750.83, and assault with intent to do
great bodily harm less than murder, MCL 750.84.. He was sentenced to life imprisonment for the
murder conviction, and concurrent prison terms of 10 to 50 years for the assault with intent to
commit murder conviction and 35 months to 10 .years for ‘the assault with intent to do great
bodily harm conviction. He appeals as of right. We affirm.
Defendant’s convictions arise from a series of fights that led to the death of Tyree Jones
who allegedly was killed when he was'struck by a motor vehicle that defendant was driving!
Defendant was also convicted of assault with intent to commit murder for striking Frank
Sanders, Jr., with his vehicle, and assault with intent to do great bodily harm less than murder for
striking Marcellus Smith on the head with a brick. At trial, defendant admitted interceding in a
fight between his cousin and Smith, and punching Smith one time to get him off his cousin, but
denied ever stnking Smith with a brick. Although several witnesses identified defendant as the
driver of a Ford Explorer that later drove through a field and allegedly struck Jones and Sanders
defendant claimed that he left the area after the fight with Smith and went to Belle Isle with his
son, and that he had no knowledge of the events that occurred afterward.
I. Dr. Cheryl Lowe’s Testimony
Defendant first argues that his Sixth Amendment right of confrontation was violated
when Dr. Cheryl Lowe, a deputy medical examiner, was permitted to testify regarding the cause
of Jones’s death, relying in part on the results of an autopsy performed by a different medical
examiner who was not available at trial and whom defendant did not have a prior opportunity to
cross-examine.
J

-1-

The record discloses that defendant did not contest the admissibility of the factual data in
the autopsy report, but rather challenged only the admissibility of the “opinions and any
statements that seem to project opinions” of the examiner who performed the autopsy. The trial
court did not allow the autopsy report or any of the opinions or conclusions of the author of the
report to be admitted, but allowed Dr. Lowe to offer her own opinions and conclusions regarding
the cause of Jones’s death. Under these circumstances, we find no error requiring reversal.
Whether Dr. Lowe’s testimony violated defendant’s Sixth Amendment right of
confrontation is a question of constitutional law that we review de novo. People v Bryant, 483
Mich 132,138; 768 NW2d 65 (2008), cert pending. In Crawford v Washington, 541 US 36, 68;
124 S (3/1354; 158 L Ed 2d 177 (2004), the United states Supreme Court held that the Sixth
Amendment Confrontation Clause bars the admission of testimonial statements of a witness who
does not appear at trial unless the witness is unavailable and the defendant had a prior
opportunity for cross-examination. Although the Court in Crawford left for further development
what statements qualify as “testimonial,” the Court later stated in Davis v Washington, 547 US
813, 822; 126 S Ct 2266; 165 L Ed 2d 224 (2006), that a statement is testimonial if the
circumstances objectively indicate that there is no ongoing emergency and the primary purpose
is “to establish or prove past events potentially relevant to later criminal prosecution.”
In Melendez-Diaz v Massachusetts',___ US'__j 129 S Ct 2527, 2530-2531; 174 L Ed 2d
314 (2009), the United States Supreme Court, addressed whether certificates of analysis prepared
by state health department. laboratory analysts to show that bags seized from the defendant
contained cocaine were testimonial. The' certificates were notarized statements from analysts,
which the Court found' were clearly affidavits that were offered in place of live testimony. Id. at
2531-2532. Under Massachusetts law, the sole purpose of the certificates was to provide prima
facie evidence of the composition, weight, and quality of the analyzed substances. Id. The Court
concluded that the certificates were testimonial statements from the analysts, who were witnesses
for purposes of the Sixth Amendment. Id. The Court held that, under Crawford, the defendant
was entitled to confront the analysts at trial, unless they were unavailable and he had a prior
opportunity to cross-examine them. Id. Further, the Court clarified that the admissibility of a
statement under the Confrontation Clause is not dependent on whether it qualifies under a
particular hearsay exception, such as for business or public records, but rather whether it is
testimonial. The Court concluded that regardless of whether the analysts’ statements qualify as
business or official records, they were prepared specifically for use at the defendant’s trial and,
therefore, they were testimony, and the analysts were subject to confrontation under the Sixth
Amendment. Id. at 2539-2540. The Court suggested in its decision that its analysis would apply
to “other types of forensic evidence commonly used in criminal prosecutions,” including autopsy
reports. Id. at 2538.
Since Melendez-Diaz was decided, other jurisdictions have applied it to bar the admission
of autopsy reports where the defendant is not afforded an opportunity to cross-examine the
preparer of the report. See State v Locklear, 363 NC 438; 681 SE2d 293, 304-305 (2009)
(holding that references in Melendez-Diaz to autopsy examinations extends that decision to
autopsy reports, but concluding that the error in admitting the opinion testimony of a
nontestifying pathologist was harmless beyond a reasonable doubt); Commonwealth v Avila, 454
Mass 744; 761-763; 912 NE2d 1014 (2009) (while a medical examiner who did not conduct the
autopsy could testify as an expert witness at trial about his own opinions, he could not testify

regarding any findings made by the examiner who conducted the autopsy and prepared the report
because the report was inadmissible hearsay and admission of those findings violates the
Confrontation Clause); Wood v State, __ SW2d
(Tex App, decided October 7, 2009)
(autopsy report was testimonial in nature and the use of the report through a witness other than
the author of the report violated the defendant’s right of confrontation, but the error was harmless
beyond a reasonable doubt).

•V

Despite the foregoing, we conclude that reversal is not required in this case because no
opinions or conclusions of the preparer of the autopsy report were admitted at trial.
Significantly, the certificates at issue in Melendez-Diaz were purely “bare-bones” conclusory
statements that the substances were found to contain cocaine; they did not include any
underlying information whatsoever from which that conclusion could be drawn. Melendez-Diaz,
supra at 2537. The Court did not actually state that autopsy reports would necessarily violate the
Confrontation Clause, and in context, we find it clear that the problem with “other types of
forensic evidence commonly used in criminal prosecutions” was with any conclusions contained
therein that could not be subjected to cross-examination as to how those conclusions were drawn.
Id. at 2537-2538. In contrast, here Dr. Lowe testified regarding her own opinions and
conclusions, and, although Dr. Lowe based her opinions in part on facts obtained during the
autopsy performed by another doctor, defendant did not challenge the admissibility of those facts
and specifically agreed that “pure facts” contained in the autopsy report could be offered at trial.
We find this case similar to United States v Richardson, 537 F3d 951 (CA 8, 2008), in
. which Alyssa Bance, a forensic scientist with the Minnesota Bureau of Criminal Apprehension,
testified about DNA evidence linking the defendant to a firearm, relying in part on testing
performed by another scientist, Jacquelyn Kuriger. Id. at 955. Although Bance had reviewed
Kuriger’s notes and test results, Bance also conducted her own peer review, which consisted of
going through all of the notes and documentation to ensure that everything was done properly.
She also performed a second independent analysis of the DNA data to compare it to Kuriger’s
review. Id. at 955-956. The court analyzed whether the admission of Bance’s testimony
describing the DNA tests and the results violated the Sixth Amendment Confrontation Clause.
Id. at 959. The court stated:
[T]he admission of Bance’s testimony that Richardson’s DNA evidence
matched the DNA evidence found on the gun was not in error. Richardson argues
that the tests and conclusions performed by Kuriger are testimonial; therefore
Bance could not testify as to these without violating the Confrontation Clause.
Bance, however, testified as to her own conclusions and was subject to cross- ■
examination. Although she did not actually perform the tests, she had an
independent responsibility to do the peer review. Her testimony concerned her
independent conclusions derived from another scientist’s tests results and did not
violate the Confrontation Clause. See Moon, 512 F.3d at 362 (holding the
reviewing scientist “was entitled to analyze the data that [the first scientist] had
obtained”). “[T]he Sixth Amendment does not demand that a chemist or other
testifying expert have done the lab work himself.” Id. Thus, Bance’s testimony
did not violate the Confrontation Clause. Because there was no error, the
-admission- of-the - testimony - was not-plainly erroneous—-See - Olano—507-U. S. -at732-33, 113 S.Ct. 1770. [Richardson, 537 F3d at 960.]
-3-

More on point with this case is United States v De La Cruz, 514 F3d 121,132-134 (CA 1,
2008), in which the court held that even if Crawford was applicable to autopsy reports, it did not
preclude a medical examiner from offering testimony based on reports prepared by others. The
court explained:

•

Defendant next contends that the district court abused its discretion when
it allowed the government’s medical examiner to give an expert opinion regarding
the cause of Wallace’s death based on toxicological and autopsy reports that were
not prepared by the examiner. Relying on Crawford v. Washington, 541 U.S. 36,
124 S.Ct. 1354, 158 L.Ed.2d 177 (2004), Defendant maintains that he was denied
his right of cross-examination. Id. at 42, 124 S.Ct. 1354 (holding that the
Confrontation Clause prohibits the admission of out-of-court statements that are
testimonial in nature unless the declarant is unavailable and the defendant had a
prior opportunity to cross-examine the declarant concerning the statements).
Dr. Thomas A. Andrew, M.D. (“Dr. Andrew”), Chief Medical Examiner
for the State of New Hampshire, testified as an expert regarding the cause of
Wallace’s death. Dr. Andrew did not himself perform the autopsy on Wallace’s
body or conduct any toxicological tests or investigate at the scene where
Wallace’s body was found. In forming his opinion as to the cause of death, Dr.
Andrew instead relied on police reports, crime scene photographs, and autopsy
and toxicology reports, all of which Were prepared by other individuals. Dr.
Andrew explained that such materials are routinely relied on by experts in his
field. Dr. Andrew also explained that autopsies -are required by law in cases
involving sudden, unexpected, or violent deaths, that autopsy reports contain
objective fact-only descriptions of the observations made by the examining
physician at the time of the autopsy, and that autopsy reports are intended to
provide a permanent record of findings relevant to the cause of death.
Defendant objected to Dr. Andrew’s testimony on Confrontation Clause
grounds. Citing Crawford, Defendant argued that the autopsy report upon which
Dr. Andrew relied constituted testimonial evidence prepared by someone whom
Defendant -could not cross-examine. The district court overruled Defendant’s
objection at trial, holding that Dr. Andrew’s testimony was not based on
testimonial hearsay but was, instead, properly based on his review of a record, the
preparation of which was required by law. For the same reasons, the district court
on remand found that Defendant’s Crawford argument did not entitle him to a
new trial.
We review de novo a claim that evidence has been admitted in violation of
the Confrontation Clause. United States v. Walter, 434 F.3d 30, 33 (1st
Cir.2006); United States v. Brito, All F.3d 53, 59 (1st Cir.2005).
In his appellate brief, Defendant’s discussion of his Confrontation Clause
claim is perfunctory at best. In essence, he argues that “[b]y allowing the medical
____examiner-to_testify-concerning reports'which he had no part in testing or
producing, the defendant was denied his right of confrontation.” Defendant’s Br.
at 13. Other than citing Crawford for the general proposition that the introduction
-4-

of testimonial hearsay runs afoul of the Confrontation Clause, Defendant cites no
cases to support his argument. We reject Defendant’s argument, in part because
his claim is “unaccompanied by some effort at developed argumentation.” Casas,
425 F.3d at 30 n. 2.
In addition, we reject Defendant’s argument on the merits. An autopsy
report is made in the ordinary course of business by a medical examiner who is
required by law to memorialize what he or she saw and did during an autopsy.
An autopsy report thus involves, in principal part, a careful and contemporaneous
reporting of a series of steps taken and facts found by a medical examiner during
an autopsy. Such a report is, we conclude, in the nature of a business record, and
business records are expressly excluded from the reach of Crawford. See
Crawford, 541 U.S. at 56, 124 S.Ct. 1354 (noting that business records are not
testimonial by nature); see also id. at 76, 124 S.Ct. 1354 (Rehnquist, C.J.,
concurring) (praising the Court’s exclusion of business records from the definition
of testimonial evidence falling within the ambit of the Confrontation Clause);
United States v. Feliz, 467 F.3d 227, 236-37 (2d Cir.2006) (noting that autopsy
reports are kept in the course of a regularly conducted business activity and are
nontestimonial under Crawford)-, Manocchio v. Moran, 919 F.2d 770, 778 (1st
. Cir.1990) (recognizing that autopsy reports are. business records akin to medical
records, prepared routinely and contemporaneously according to “statutorily
regularized procedures and established medical standards” and “in a laboratory
environment by trained individuals with specialized qualifications”).
In People v. Durio, 1 Misc.3d 729, 794 N.Y.S.2d 863 (N.Y.Sup.Ct.2005),
the court held that the admission of both the routine findings recited in an autopsy
report as well as the accompanying testimony of an assistant medical examiner
who neither conducted the autopsy nor prepared the report was proper under
Crawford. Concluding that the autopsy report was a nontestimonial business
record, the Durio court described the practical implications that would follow
from treating autopsy reports as inadmissible testimonial hearsay under Crawford.
“Years may pass between the performance of the autopsy and the
apprehension of the perpetrator. This passage of time can easily lead to the
unavailability of the examiner who prepared the autopsy report. Moreover,
medical examiners who regularly perform hundreds of autopsies are unlikely to
have any independent recollection of the autopsy at issue in a particular case and
in testifying invariably rely entirely on the autopsy report. Unlike other forensic
tests, an autopsy cannot be replicated by another pathologist. Certainly it would
be against society’s interests to permit the unavailability of the medical examiner
who prepared the report to preclude the prosecution of a homicide case.”
Id. at 869.
Like the court in Durio, we are unpersuaded that a medical examiner is
precluded under Crawford from either (T) testifying about the facts contained in
an autopsy report prepared by another, or (2) expressing an opinion about the
cause of death based on factual reports-particularly an autopsy report-prepared by
-5-

another.5 Because, in this case, we find that Dr. Andrew’s testimony was proper
under Crawford, we find no error in the district court’s decisions (at trial and on
remand) regarding Dr. Andrew’s opinion as to the cause of Wallace’s death.
5 We add that, as a matter of expert opinion testimony, a physician’s
reliance on reports prepared by other medical professionals is “plainly justified in
light of the custom and practice of the medical profession. Doctors routinely rely
on observations reported by other, doctors, and it is unrealistic to expect a
physician, as a condition precedent to offering opinion testimony . . . , to have
performed every test, procedure, and examination himself.” Crowe v: Marchand,
506 F.3d 13,17-18 (1st Cir.2007) (internal citations omitted).
In this case, defendant did not contest the admissibility of the factual data from the
autopsy report, and Dr. Lowe testified at trial about her own opinions and conclusions based on
that data; the opinions and conclusions of the nontestifying examiner who conducted the autopsy
were not admitted. Because defendant had the opportunity to confront Dr. Lowe and crossexamine her regarding her opinions, defendant’s Sixth Amendment right of confrontation was
not violated.
This case is also distinguishable from People v Lonsby, 268 Mich App 375; 707 NW2d
610 (2005), because here Dr. Lowe testified that she independently reviewed the case file and
she was examined about her own opinions and conclusions, not those of the medical examiner
who performed the autopsy.
Defendant also argues that Dr. Lowe’s use of an anatomical sketch that was prepared by
the nontestifying medical examiner to document Jones’s injuries violated defendant’s Sixth
Amendment right of confrontation. Because defendant did not object to the use of this sketch at
trial, this issue is not preserved. Therefore, defendant has the burden of demonstrating a plain
error affecting his substantial rights. People v Cannes, 460 Mich 750, 763; 597 NW2d 130
(1999). Dr. Lowe testified that she independently reviewed the sketch and compared it to other
evidence from the autopsy, including photographs of the victim’s injuries, and concluded that the
diagram was an accurate representation of the victim’s injuries, Because Dr. Lowe
independently verified the accuracy of the sketch, and was present at trial and subject to crossexamination concerning the sketch, defendant has not established a plain error under the
Confrontation Clause.
II. Effective Assistance of Counsel
Defendant next argues that he is entitled to a new trial because trial counsel was
ineffective. Whether a defendant has been denied the effective assistance of counsel is a mixed
question of fact and constitutional law. People v LeBlanc, 465 Mich 575, 579; 640 NW2d 246
(2002). Any findings of fact made by the trial court are reviewed for clear error, and whether
those findings establish a claim of ineffective assistance of counsel is reviewed de novo as a
question of law. Id. In this case, the trial court denied defendant’s motion for a new trial on this
"issue, but declined“defelTdant’s'request foran"evidentiary ‘hearing ~ Therefore,- the - trial-court-did-

-6-

not make any findings of fact. Accordingly, we review this issue de novo based on the existing
record.
To establish ineffective assistance of counsel, defendant must show that counsel’s
performance fell below an objective standard of reasonableness, and that the representation so
prejudiced defendant that he was denied the right to a fair trial. People v Pickens, 446 Mich 298,
338; 521 NW2d 797 (1994). Defendant must overcome the presumption that the challenged
action might be considered sound trial strategy. People v Tommolino, 187 Mich App 14, 17; 466
NW2d 315 (1991). To establish prejudice, defendant must show that there is a reasonable
probability that, but for counsel’s errors, the result of the proceeding would have been different.
People v Johnnie Johnson, Jr, 451 Mich 115,124; 545 NW2d 637 (1996).
First, we find no merit to defendant’s argument that defense counsel was ineffective for
failing to call Shante Lunsford to testify. “Decisions regarding what evidence to present and
whether to call or question witnesses are presumed to be matters of trial strategy, and this Court
will not substitute its judgment for that of counsel regarding matters of trial strategy.” People v
Marcus Davis, 250 Mich App 357, 368; 649 NW2d 94 (2002). In this case, defendant has not
overcome the presumption that counsel did not call Lunsford as a matter of trial strategy, nor has
he shown that he was prejudiced by the absence of her testimony. Defendant argues that
Lunsford should have been called as a witness because she indicated in her police statement that
she saw a man driving a Ford Explorer, whom she described as bald, whereas witnesses
described defendant’s hair as short. However, Lunsford’s statement indicated that she saw the
driver between 8:00 and 8:30 a.m., whereas the trial testimony established that the offenses
occurred after .10:00 a.m. Thus, even if Lunsford had testified consistently .with her police
statement, her testimony would not have been helpful in refuting defendant’s identity as the
driver of the Explorer at the time of the offenses; The failure to call Lunsford'did not deprive
defendant of a substantial defense.
We also disagree with defendant’s claim that defense counsel was ineffective for not
filing a notice of alibi or requesting an alibi defense jury instruction. Defendant was able to fully
present his claim that he was not present when the charged offenses were committed. Further,
the trial court’s jury instructions made it clear that the jury could not convict defendant of the
charged crimes unless his identification as the perpetrator of the crimes was proven beyond a
reasonable doubt. Under the court’s instructions, the jury would have been required to find
defendant not guilty if it believed his testimony that he was not present when the charged crimes
were committed. The court’s instructions were sufficient to protect defendant’s rights.
Accordingly, defendant has not shown that he was prejudiced by defense counsel’s failure to
further request an instruction on alibi.
Defendant lastly argues that defense counsel was ineffective for not objecting to a
witness’s testimony that she had received threats from defendant’s family members. First,
contrary to what a defendant argues, evidence of a defendant’s threats against a witness is
generally admissible because it can demonstrate consciousness of guilt. People v Shall, 453
Mich 730, 740; 556 NW2d 851 (1996). Evidence of threats is also relevant to the credibility of a
witness’s testimony. See CJI2d 3.6(3)(f) (in judging the credibility of a witness, the jury may
"considerwhetherthere-were-any-promises;-threatsrsuggestionsrorother'influences'that-affectedhow the witness testified). In this case, defense counsel reasonably may have declined to object
or further pursue the matter because he realized that such evidence was generally admissible, and
-7-

because the witness admitted that the threats were not directly made by defendant, thereby
minimizing the potential for prejudice. Counsel also may have realized that, had this issue been
pursued or an objection made, a record might have been developed that would have either
highlighted the testimony or established a more direct connection to defendant. Accordingly,
defendant has not shown that counsel’s decision not to object was objectively unreasonable.
Furthermore, because defendant has not offered any reasons why further development of
the record may support his arguments, we reject his request to remand this case for an
evidentiary hearing on this issue.
III. Cause of Death
Defendant next argues that the trial court’s jury instructions were deficient because they
did not inform the jury that the prosecution was required to prove beyond a reasonable doubt that
he deliberately drove his motor vehicle into Jones, and thereby caused Jones’s fatal injuries. Not
only was there no objection to the trial court’s jury instructions, but defense counsel
affirmatively approved the instructions as given. Therefore, this alleged error has been waived.
People v Matuszak, 263 Mich App 42, 57; 687 NW2d 342 (2004); People v Lueth, 253 Mich
App 670,688; 660 NW2d 322 (2002).
Even if we were to consider this issue under the plain error standard applicable to
.unpreserved issues, People v Gonzalez, 468 Mich 636, 643; 664 NW2d 159 (2003), reversal
would not be warranted. The trial court’s instructions informed the jury that in order to convict
' defendant of first-degree premeditated murder, it was required to find that defendant caused
Jones’s death, that defendant intended to kill Jones, and that the intent to kill was premeditated.
Although defendant observes that there was evidence that Jones was involved in fights with
others before he was struck by a motor vehicle, under the trial court’s instructions as given, the
jury could not convict defendant of first-degree murder unless it found beyond a reasonable
doubt that it was defendant who caused Jones’s death. Accordingly, there was no plain error.
IV. Motion for Mistrial
After jury selection, but before opening statements, codefendant Jermaine King entered a
guilty plea. Defendant now argues that the trial court erred in denying his motion for a mistrial.
Defendant argues that a mistrial was required because his jury was likely to view codefendant
King’s absence in a “negative light” and it most likely attributed his absence to a guilty plea.
The grant or denial of a motion for a mistrial is within the sound discretion of the trial
court. There must a showing of prejudice to the defendant’s rights in order for there to be error
requiring reversal. The trial court’s ruling must be so grossly in error as to deprive the defendant
of a fair trial or amount to a miscarriage of justice. People v McAlister, 203 Mich App 495, 503;
513 NW2d 431 (1994).
To be entitled to relief for this issue, defendant must show that his codefendant’s absence
resulted in actual prejudice that deprived him of a fair trial. People v Kenneth Smith, 63 Mich
App 35, 36; 233 NW2d 883 (1975). Defendant has not made this necessary showing. After
---- codefendant-King-pleaded-guilty,-the-trial-court-appropriately-instructed-the-jury_that.it-would.be___
considering only the case as it relates to defendant, and that it was “not to read anything into any
-8-

other thing, other than you’re going to base your decision solely on the evidence that’s being
presented here.” The court’s instruction reinforced that the jury was not to consider codefendant
Kings’s absence from trial, or possible reasons for that absence, and instead was to consider
defendant’s case solely on the basis of the evidence admitted at trial. This instruction was
sufficient to cure any possible prejudice arising from codefendant King’s absence, Id.', see also
United State v Earley, 482 F2d 53, 58 (CA 10, 1973).
We also reject defendant’s argument that his Sixth Amendment right to a jury trial was
compromised because, before codefendant 'King pleaded guilty, he had peremptorily excused
three jurors, whom defendant may have wished to remain on the jury panel. Defendant does not
claim that the jury actually chosen was unfair, or that King was not entitled to exercise the
peremptory challenges when he did. Accordingly, he has not established actual prejudice. See
People y Coles, 79 Mich App 255, 264; 261 NW2d 280 (1977), aff d and remanded on other
grounds 417 Mich 523, 553 (1983).
For these reasons, the trial court did not abuse its discretion in denying defendant’s
motion for a mistrial.
V. Transferred Intent
Next, defendant argues that the trial court erred in instructing the jury on transferred
intent, consistent with CJI2d 16.22, Defendant argues that the instruction should not have been
given because.it relieved the prosecution of its duty to prove that Jones’s death resulted from a
premeditated and deliberate intent to kill. We disagree.
An instruction on transferred intent is appropriate if a defendant intended to kill one
person, but by mistake or accident killed another person. The doctrine recognizes that “[i]t is
only necessary that the state of mind exist, not that it be directed at a particular person.” People
v Lovett, 90 Mich App 169, 172; 283 NW2d 357 (1979). In this case, it was the prosecution’s
theory that defendant drove his vehicle after Frank Sanders, intending to kill him, but lost control
of the vehicle and struck Jones instead. If defendant acted with a premeditated intent to kill
Sanders, but by mistake or accident killed Jones instead, he properly could be convicted of first. degree murder under a theory of transferred intent. The court’s instruction did not lessen the
prosecution’s burden of proving the elements of first-degree murder because the prosecution was
still required to prove that defendant possessed the requisite intent for first-degree premeditated
murder when he directed his conduct at Sanders. Accordingly, there was no error. VI. Right to Present a Defense
Defendant argues that the trial court denied him his constitutional right to present a
defense when it sustained the prosecutor’s objection to defense counsel’s cross-examination of a
witness regarding the height of another man who had been involved in an earlier fight with
Jones. This Court reviews de novo whether a defendant was deprived of his constitutional right
to present a defense.- People v Steele, 283 Mich App 472, 480; 769 NW2d 256 (2009).
In People v Unger, 278 Mich App 210, 249-251; 749 NW2d 272 (2008), this Court
explained:

-9-

Few rights are more fundamental than that of an accused to present
evidence in his or her own defense. Chambers v Mississippi, 410 US 284, 302; 93
S Ct 1038; 35 L Ed 2d 297 (1973). “Whether rooted directly in the Due Process
Clause of the Fourteenth Amendment or in the Compulsory Process or
Confrontation clauses of the Sixth Amendment, the Constitution guarantees
criminal defendants a meaningful opportunity to present a complete defense.
Holmes v South Carolina, 547 US 319, 324; 126 S Gt 1727; 164 L Ed 2d 503
(2006) (internal quotation marks and citations omitted). This Court has similarly
reco gnized that “[a] criminal defendant has a state and federal constitutional right
to present a defense.” Kurr, supra at 326.
However, an accused’s right to present evidence in his defense is not
absolute. United States v Scheffer, 523 US 303, 308; 118 S Ct 1261; !4Q L Ed 2d
413 (1998); Crane v Kentucky, 476 US 683, 690; 106 S Ct 2142; 90 L Ed.2d 636
(1986). “A defendant’s interest in presenting . . . evidence may thus ‘“bow to
accommodate other legitimate interests in the criminal trial ■process.’”” sfeffe^
supra at 308 (citations omitted). States have been traditionally afforded the
power under the constitution to establish and implement their own criminal trial
rules and procedures. Chambers, supra at 302-303.

•

Like other states, Michigan has a legitimate interest in promulgating and
implementing its own rules concerning the conduct of trials. Our state has “broad
.
latitude under the Constitution to establish rules excluding evidence from criminal
trials. Such rules-do not abridge an accused’s right to present a defense so long as
they are not ‘arbitrary’ or ‘disproportionate.to the purposes they are designed to
serve.’” Scheffer, supra at 308, quoting Rock v Arkansas, 483 US 44, 56; 107 S
Ct 2704' 97 L Ed 2d 37 (1987). MRE 703, which requires expert witnesses to
base their opinions on facts in evidence, does not infringe on a criminal
defendant’s right to present a full defense. Instead, it merely serves to ensure that
the expert opinions presented in the courts of this state are relevant and reliable.
Nor is a criminal defendant’s constitutional right to present a defense infringed by
MRE 402, which simply bars the admission of irrelevant evidence. These rules of
evidence help to ensure the integrity of criminal trials and are neither “arbitrary”
nor “disproportionate to the purposes they are designed to serve.”

In this case, the trial court did not preclude defendant from presenting his defense theory
that the man who was involved in the earlier fight with Jones may have caused Jones s death.
The witness testified regarding the roles of the other man m the earlier fight with Jones, and
defendant’s role in later driving the SUV into the field. The witness did not express confusion
regarding the respective roles of each man in the case. Any uncertainty the witness may hav
had about the first man’s height was not relevant to discredit her testimony that defendant was
the person who drove the SUV that struck the victims. MRE 401. The tnal court s ruling did
not deprive defendant of his right to present his defense theory that the other man who initially
fought with Jones caused his death.
VIT. Supplemental Jury Instructions

-10-

Defendant lastly argues that the trial court erroneously responded to the jury’s request to
review certain testimony. Defense counsel’s expression of satisfaction with the trial court’s
supplemental instruction waived any claim of error. Matuszak, 263 Mich App at 57; Lueth, 253
Mich App at 688. Even if this issue was not waived, we would find no error. The trial court
advised the jury that a transcript was not available and that the jurors should rely on their
collective memories of the witnesses’ testimony. The court did not foreclose the possibility of
having the testimony reviewed at a later time. Indeed, the court advised the jury that the
testimony was available on audiotape, and that if the jury was unable to come to a consensus,
one alternative would be “to do a read back.” Accordingly, there was no error. People v John L
Davis, Jr, 216 Mich App 47, 56-57; 549 NW2d 1 (1996).
We also reject defendant’s argument that it was improper for the trial court to provide the
jury with a written copy of its instructions concerning the elements of the charged offenses when
responding to the jury’s request to review certain testimony. At trial, when instructing the jury
on the elements of the offenses, the trial court stated:

I

I don 7 want you writing anything down at this point. We 're going to give
you the substantive instructions that the Court’s about ready to give you. I want
your undivided attention because if you’re writing you’re not going to be able to
comprehend exactly what the Court’s saying, okay.
If at any time you don’t understand what the Court is saying, please do not
be embarrassed. Just raise your hands and the Court will give you the instruction
again. So I’m going to give you these.instructions in written format, okay, ladies
and gentlemen, so don’t be too terribly concerned, okay.
When the trial court was responding to the jury’s request to review certain testimony, it realized
that it had neglected to provide the written instructions it previously promised. It was not
improper for the trial court to provide those instructions in accordance with its earlier promise.
Affirmed.
/s/ Alton T. Davis
/s/ Karen M. Fort Hood
/s/ Deborah A. Servitto

-11-

I

Additional material
from this filing is
available in the
Clerk's Office.

